<html>
<title> - LESSONS LEARNED FROM REMOTE WORKING DURING COVID-19: CAN THE GOVERNMENT SAVE MONEY THROUGH MAXIMIZING EFFICIENT USE OF LEASED SPACE?</title>
<body><pre>[Senate Hearing 116-264]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-264
 
LESSONS LEARNED FROM REMOTE WORKING DURING COVID-19: CAN THE GOVERNMENT 
      SAVE MONEY THROUGH MAXIMIZING EFFICIENT USE OF LEASED SPACE?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-322 PDF             WASHINGTON : 2020 
 
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 29, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Pringle, Mark, Senior Vice President of Corporate Real Estate, 
  Global Facilities and Environment, Health and Safety, Dell 
  Technologies...................................................     5
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Barrasso.........................................    12
        Senator Boozman..........................................    13
Lister, Kate, President, Global Workplace Analytics..............    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Barrasso.........................................    29
        Senator Boozman..........................................    32
Benjamin, Michael T., Chief, Air Quality Planning and Science 
  Division, California Air Resources Board.......................    35
    Prepared statement...........................................    38

                          ADDITIONAL MATERIAL

Statement for the Record, Facebook, Inc., July 29, 2020..........    60



LESSONS LEARNED FROM REMOTE WORKING DURING COVID-19: CAN THE GOVERNMENT 
      SAVE MONEY THROUGH MAXIMIZING EFFICIENT USE OF LEASED SPACE?

                              ----------                              


                        WEDNESDAY, JULY 29, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Braun, Rounds, 
Boozman, Ernst, and Cardin.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    In just the past 6 months, the COVID-19 pandemic has 
completely upended our everyday way of life. One of the most 
sudden, stark, and significant transitions has been to the way 
that all of us work. Millions of Americans have been unable to 
go to the office each day.
    As a result, we have had to find a way to get our jobs done 
and keep our economy going. The financial hit to small and 
larger businesses has been devastating during this crisis. 
Reducing expenses is increasingly important for individuals and 
businesses as the country struggles with the unexpected costs 
of the coronavirus pandemic. Such cost savings are likely to 
persist after the pandemic.
    Nearly one in five private sector chief financial officers 
plans to keep at least 20 percent of their workforce working 
remotely after the COVID-19 pandemic ends in order to cut 
costs. I believe the Federal Government should also be looking 
for opportunities to save taxpayer money wherever and whenever 
possible.
    The private sector is leading the way in reducing expenses. 
In recent years, private sector companies have consolidated and 
reduced their real estate footprint in order to save money. 
They have been able to do this because modern 
telecommunications technologies have enabled them to adopt 
remote work options and other flexible work strategies.
    By 2016, Dell Technologies had already shifted one-quarter 
of its employees to work from home, either full time or a few 
days a week. Dell Technologies was able to consolidate office 
space, reduce square footage, and implement more flexible 
workspace strategies, saving roughly $12 million each year.
    American Express has saved up to $15 million annually on 
real estate costs through flexible work options. Aetna provides 
flexible workspace and work from home options for 47 percent of 
its employees, decreasing its need for office space by 2.7 
million square feet and saving the company $78 million each 
year.
    On the Federal side, the General Services Administration, 
the GSA, is the most advanced agency in the Federal Government, 
pursuing remote work options and other innovative work 
strategies.
    GSA's Total Workplace Program improves the use of office 
space through various workplace strategies. These include 
enabling and supporting mobile work, reconfiguring support 
spaces, desk sharing, and shifting from traditional office 
space to more flexible, open plan workplace environments.
    The top priority of the GSA is to maximize the use of owned 
Federal space, eliminate costly lease arrangements, and dispose 
of under-utilized assets. GSA has decreased the square footage 
of its own usable office space by 32 percent. It has cut its 
operations and maintenance costs by $10 million in the last 4 
years.
    The Office of Personnel Management reported to Congress 
that over 900,000 Federal employees were eligible to telework 
in the fiscal year 2018. Now, that is 42 percent of all Federal 
employees.
    The consulting firm, Global Workplace Analytics, determined 
that if all Federal employees eligible for telework had 
telecommunicated just half the time, the Federal Government 
could reduce its need for office space by 25 percent.
    Taxpayers could save $1.75 billion in real estate costs 
alone and over $11 billion in total costs. Through such 
telework, Federal employees would also save on personnel 
experiences and expenditures, such as food, commuting, gas, and 
dry cleaning.
    Today's hearing is an opportunity to examine how the 
lessons the private sector has learned about cost savings from 
telework can be translated to the Federal Government. These 
lessons will allow the Government to reduce its footprint and 
save American taxpayer money.
    I look forward to hearing from our witnesses today, and 
will now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman. I am happy to be 
here with you in person, live, and in person.
    We welcome our witnesses from far away as, I understand, 
Texas, and California, two in California. We thank you all for 
joining us.
    In California, I used to spend some time there in the Navy, 
and right about, what is it? Ten, 10:15 here? It is a little 
earlier than that in California, so thank you very much for 
getting up early.
    It goes without saying that just about every aspect of our 
lives has radically changed over the last 6 months. As 
individuals and as a country, we have been forced to adapt to 
what is really a new normal in our lives wearing masks, 
coughing in our sleeves, practicing social distancing, and a 
whole lot more.
    For millions of Americans, one of the biggest changes and 
challenges has been adjusting to the new normal of telework.
    When it comes to finding solutions for tough problems, I 
often say that we should find out what works and do more of 
that. The sudden shift to implementing flexible work strategies 
like telework across the Federal Government has given us an 
opportunity to examine how those alternative methods actually 
work or don't work.
    This is our opportunity to find out what works and do more 
of that. What we learn about telework today will fundamentally 
change and shape how we view and implement telework as a 
country, from now and well into the future.
    One of the agencies under the jurisdiction of our Committee 
is, of course, the General Services Administration, 
affectionately known as GSA, which operates Federal building 
space.
    I hope that the testimony we hear today will shed some 
light about the use of private space, like people's homes, that 
the Chairman has alluded to, during telework, which could 
provide new, important insights about how we operate Federal 
buildings.
    After, all, we have more than, I'm told, 350,000 buildings 
that the Federal Government uses. They consume energy; in fact, 
I am told the Federal Government is the largest consumer of 
energy.
    What we learn about telework today could help us figure out 
how to occupy and operate Federal building space more 
efficiently, and ultimately, reduce our Nation's carbon 
footprint.
    Another area of concern for this Committee is the impact of 
telework on our environment, specifically on our air quality. 
As our witness from California will describe in greater detail, 
across the country, communities that are normally cloaked in 
smog are now breathing cleaner air and experiencing the 
positive effects of widely reduced travel.
    For too long, we have witnessed the harmful effects of air 
pollution on public health and quality of life for so many 
Americans, especially those in our most vulnerable communities.
    I believe we should be doing whatever we can, as soon as we 
can, to reduce emissions associated with how we travel. That 
can include reducing travel demand during rush hour through 
telework policies.
    It also includes reducing vehicle emissions through fuel 
economy standards and through the electrification of the cars, 
the trucks, and the vans that we drive, which are the largest 
source of global warming pollution in our country.
    Another important way to reduce travel related emissions is 
by investing in multi-modal, low emission transportation 
choices such as transit, biking, and walking. Put together, 
these policies of telework, of transit, of CAFE standards, and 
electrification can make a major difference in alleviating 
smog, easing congestion, and reducing climate changing 
emissions, both during a pandemic and later on, when this 
scourge is a fading memory.
    Mr. Chairman, you have heard me quote Albert Einstein 
probably more than you want to remember, when I say, ``In 
adversity lies opportunity.'' I have been thinking about that 
quote a whole lot over the last couple of months, because of 
our Nation's adversity that we are facing, tremendous adversity 
we are facing.
    While extremely challenging and tragic, this pandemic has 
also provided us with a real life case study on the effects of 
reduced travel related emissions. I look forward to learning 
more about how we can translate those successes into long term 
strategies to help us address climate change.
    Finally, Mr. Chairman, the Homeland Security and Government 
Affairs Committee, on which I serve, and which has jurisdiction 
over Federal workforce issues, held a hearing yesterday on 
issues quite similar to some of the ones that we are going to 
be taking up today.
    I look forward to drilling down on it again today with you, 
Mr. Chairman, with members of our Committee in person, and over 
the Internet. Maybe we could even work with some of our friends 
on the Homeland Security Committee as we continue to adjust to 
this new normal.
    I will close with this. A decade or so ago, folks from 
Discover Card had to do a fair amount of financial services in 
Delaware. The folks from Discover Card called me and said, We 
are thinking of doing something different at the Dover Air 
Force Base. I said, Well, what would that be? Are you going to 
put up, like, a branch or something? No, they said, we are 
going to hire spouses of military personnel, the dependents, to 
work for us from their homes on the base. I said, Really? And 
they said, Yes, really, and they did.
    And I think today, there are still over a hundred spouses 
working there remotely. It is a good second income for 
themselves and their families.
    Discover Card actually wins a lot of kudos for the quality 
of their customer service the State provides. So find out what 
works, do more of that. That is what we are trying to do.
    Thanks, Mr. Chairman.
    Senator Barrasso. Well, thank you so much, Senator Carper, 
and we do have really some outstanding witnesses with us today. 
We are going to hear from them, all of whom are joining us 
remotely.
    Mark Pringle is here; he is the Senior Vice President of 
Corporate Real Estate, Global Facilities and Environment Health 
and Safety with Dell Technologies. He will be joining us 
remotely from Round Rock, Texas, a few miles north of Austin.
    Also joining us is Kate Lister, the President of Global 
Workplace Analytics, who is joining us from Carlsbad, 
California.
    And finally, Michael Benjamin, who is the Chief of Air 
Quality Planning Division for the California Air Resources 
Board. He is joining us from Sacramento, California.
    Welcome, all three of you today.
    I would like to remind the witnesses that your full written 
testimony will be made part of the official hearing record 
today. We ask that you please try to keep your statements to 5 
minutes so that we may have time for questions. We look forward 
to the testimony.
    We are going to start with Mr. Pringle, then go to Ms. 
Lister, and then Mr. Benjamin.
    With that, Mr. Pringle, please proceed.

 STATEMENT OF MARK PRINGLE, SENIOR VICE PRESIDENT OF CORPORATE 
  REAL ESTATE, GLOBAL FACILITIES AND ENVIRONMENT, HEALTH AND 
                   SAFETY, DELL TECHNOLOGIES

    Mr. Pringle. Good morning, Chairman Barrasso and Ranking 
Member Carper.
    My name is Mark Pringle. I am the Senior Vice President of 
Corporate Real Estate, Global Facilities, and Environment, 
Health and Safety for Dell Technologies. For the record, my 
biography is attached to the statement.
    Thank you for inviting me here today to discuss flexible 
workspace strategies and the ways the Federal Government might 
integrate these strategies in the future. In addition, I will 
address the implications a flexible workplace approach might 
have on the need for physical office spaces and how Dell has 
approached these workspace strategies.
    Beginning in 2009, Dell Technologies established our 
Connected Workplace Program, which allows our employees to 
choose the work style that best fulfills their needs on the job 
and in life in a highly mobile, collaborative, and flexible 
work setting. The program has positively impacted our business, 
our approach to talent acquisition, and our environmental 
footprint.
    But more than just a policy, this program is about a change 
in how we think about work, where work is not anchored to one 
place and time, and instead is focused on outcomes.
    In 2013, after an initial 3 year implementation of 
Connected Workplace, Dell Technologies established a goal to 
enable 50 percent of our workforce to work flexibly by 2020, at 
times in an office, but also from home and on the road. Earlier 
this year, before the onset of COVID-19, we had surpassed that 
goal, with approximately 65 percent of Dell Technologies 
employees leveraging work flexibility in their jobs.
    Dell Technologies Connected Workplace encouraged employees 
to design their local working arrangement, including remote 
work, flexible hours, and job sharing. It also involved 
supporting flex workers' needs through enhanced technology 
infrastructure, training opportunities, and an employee 
resource group.
    From an environmental impact study in 2016, approximately 
10,000 U.S. employees who worked remotely reduced their travel 
by 136 million miles a year and emitted 35,000 less metric tons 
of greenhouse gases from having fewer commuters on the road. 
That is the equivalent of taking nearly 7,400 cars off the road 
each year.
    We estimate that positive impact has increased two to three 
times as our U.S. remote workers have increased significantly 
over the last 4 years.
    From 2013 to 2016, our Connected Workplace solutions have 
avoided an estimated 25 million kilowatt hours, and we were 
able to realize approximately $12 million a year in real estate 
cost savings, driving over $50 million in total savings.
    In 2017, as Dell Technologies continued to evolve and grow 
as a company, our real estate footprint changed dramatically 
due to acquisitions and divestitures.
    As a result, our real estate overhead costs and strategy 
the last few years has been tied primarily to supporting our 
business strategies, which includes growth of sites, reducing 
or eliminating sites, and workplace investments for employee 
productivity.
    In 2020, the onset of COVID-19 required that we convert, 
nearly overnight, 90 percent of our employees to ``work from 
home'' status, which has us looking forward on how best to 
support our employees' work style, and effectively manage our 
real estate portfolio. We are estimating Dell Technologies can 
achieve 20 to 30 percent real estate savings over the next 5 
years as we assess our future requirements.
    While the overnight transition to a remote workforce was a 
feat, we know coming out of this crisis that many of our 
employees won't need or desire to return to our corporate 
offices, at least not on a full time basis. As we began our 
return to site process, we surveyed our employees on how and 
when they felt comfortable to return to the office.
    The results were fascinating. Across the different regions, 
countries, and organizations, the result were consistent. On 
average, 60 percent of employees desired to work from home with 
the flexibility to go to the office for collaboration and 
meetings a few days a week. Twenty to 30 percent of employees 
desired to work from home full time, and 10 to 20 percent of 
employees desired to work in the office full time.
    We actually see this as an opportunity to reinvent and 
redefine work in the new world, and we are looking at ways to 
enable and innovate new ways of working with high levels of 
employee engagement and productivity. We need to evolve the 
dated mindset that being in an office full time is an actual 
business imperative.
    In conclusion, we are rarely afforded the opportunity to 
make such dramatic changes to our businesses in such a short 
period of time. Even rarer still is the ability to do so in a 
way that will better prepare our teams for the changing digital 
landscape by helping us achieve organizational goals around 
sustainability, diversity, and innovation.
    COVID-19 has exacted a devastating public health and 
economic toll on our country. One of the best ways to recover 
from both catastrophes is to reimagine work in ways that 
genuinely improve the quality of life for our Nation's 
workforce. We look forward to that journey, and thank you for 
inviting me here today.
    [The prepared statement of Mr. Pringle follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Thank you very much, Mr. Pringle. We are 
very grateful for you to take the time and join us and to be 
part of the testimony.
    We are now going to turn to Ms. Lister.
    Please proceed.

                   STATEMENT OF KATE LISTER, 
             PRESIDENT, GLOBAL WORKPLACE ANALYTICS

    Ms. Lister. Thank you, Chairman Barrasso, Ranking Member 
Carper, all the members of the Committee for inviting me to 
comment here today.
    I have been a telework advocate for 15 years. Why? Because 
I go where facts lead me. In the case of telework, they lead me 
to the conclusion that the employer, employee, and 
environmental benefits are just too compelling to ignore.
    The COVID-19 crisis forced, as you said, over 95 percent of 
office workers to become teleworkers practically overnight, and 
now more than 4 months into this global telework experiment, it 
looks like the experience is going to fundamentally reshape the 
future of where, how, and when people work.
    The results of a survey conducted by PWC released in June 
2020, just a month ago, showed that 89 percent of executives 
expect more than 30 percent of their employees to continue to 
work at home at least 1 day a week, and 55 percent expect more 
than 60 percent to do so.
    I know that is a lot of numbers, but this is going to 
change things. The employees want it, too, in spite of less 
than ideal conditions at home, working at home during the 
pandemic, nearly 7 in 10 want to continue to do so. The number 
is even higher in Government.
    This is based on a survey that Dr. Anita Kamouri of 
Iometrics and I recently fielded to 2,800 global employees. It 
said that, just as we heard from Mark, that 2 to 3 days a week 
seems to be the sweet spot, so it is not all in or all out, it 
is part of the time.
    The pandemic didn't start the telework trend, but it is 
going to accelerate it. So what is that going to mean to office 
space? The fact is much of office space in this country is 
inefficient and ineffective.
    For more than a decade, occupancy studies around the globe 
have consistently shown that people are not at their desk the 
majority of the time. They are working in conference rooms, 
they are at customer locations, coworking centers, working at 
home, really anywhere that they can get availability of 
broadband.
    So, regardless of what you call it, employees are already 
mobile. All of the things that we need to do to support 
teleworkers are the same things we need to do to support a 21st 
century workforce.
    The majority of employers have let remote work happen, 
rather than making it happen. Those that have been intentional 
about it have coincidentally transformed their offices into 
places that support a wide range of activities. These leaders 
have reaped the benefits in terms of lower overhead, happier 
and more productive employees, and less waste.
    Your success lies in the integration of policies, 
practices, and a choice of places and spaces of work that 
includes home. Predictably, the organizations that have 
prioritized cost reduction over people, cramming more people 
into smaller spaces, have been disappointed by the results.
    Telework programs need to be supported from the very top of 
the organization chart. They need to be deployed as a 
collaboration between human resources, real estate, IT, and 
other stakeholder groups.
    When we don't have that cross-functional approach, outcomes 
suffer. When deployed strategically, we have seen across the 
public and private sector that the potential benefits of 
telework are real. The Chairman mentioned some in his opening 
comments.
    In Government, some of the numbers that we have seen, 
Social Security Administration reported $900 million in annual 
real estate savings. U.S. Patent and Trademark Office reported 
$50 million in annual real estate savings, and an almost 100 
million mile reduction in vehicle miles traveled.
    There are many more examples in Government. The Federal 
Work-Life Survey and Federal Employee Viewpoint Survey also 
documented significant positive impacts on people. Compared to 
non-telecommuters, telecommuters are more engaged, more 
satisfied, and less likely to leave the agency.
    Further evidence for how important telework is to 
Government employees was revealed when the Department of 
Education canceled their telework program and then surveyed 
employees 9 months later.
    The vast majority of those polled said that it didn't do 
what it was supposed to, which is enhance collaboration and 
improve customer service. In addition, it decreased 
productivity, hurt morale, increased absenteeism, and 
potentially increased turnover.
    There are lots of examples of private sector successes in 
telework as well. Cisco, one of the earlier companies to get 
involved in this, showed a 30 percent reduction in real estate 
in spite of a 15 percent increase in workforce. It closed 241 
buildings. They saved another $200 million in operation 
expenses, and they produced about $300 million in income from 
the sale of other owned real estate.
    Mazda showed 33 percent greater occupancy in the same 
space. ADP saved $6,000 per part time remote worker per year, 
and the cost is only $500 per remote worker per year.
    Across the pond, British Telecom shows $150 million 
reduction in annual real estate costs with their telework 
program.
    Plantronics reduced their real estate needs by more than 
half, and interestingly, the U.K. Government shed over 120 
properties in central London. It reduced their government owned 
buildings from 180 properties to just 63 in central London.
    It is important to note that all of these impacts and these 
examples have taken the integrated approach, not simply 
adopting telework.
    The potential for bottom line in Government is clear. In 
2016, the U.S. Accountability Office was charged by Members of 
Congress with investigating methods and tools for quantifying 
the impact of telework in Government.
    As part of that investigation, they evaluated our telework 
savings calculator, which the Chairman mentioned in his opening 
statement. They called it comprehensive and based on solid 
research.
    Based on the conservative assumptions in that calculator, 
as the Chairman said, we estimate that Government could save 
over $11 billion per year, or $13,000 per half time teleworker 
per year. Over $1.7 billion of that would come from a reduction 
in real estate.
    We need to go beyond thinking about telework as a tactical 
solution to the problem du jour, and start seeing it as a 
strategic imperative.
    In a world where brains, not brawn or machinery or land 
ownership are the creators of wealth, we need to break loose of 
the 20th century framework that keeps us tethered to the 
concept of work as a place rather than what we do.
    In the words of, from my understanding, Benjamin Franklin, 
``Out of adversity comes opportunity,'' and this is our 
opportunity to fundamentally reframe the where, when, and how 
of work in a way that is markedly better for people, planet, 
and performance.
    Thank you again for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Ms. Lister follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Well, thank you so very much.
    Senator Carper, do you want to check in on these quote 
sources?
    Senator Carper. Oh, no, it was Franklin who said, who was 
asked coming out of, I think, Independence Hall, and he was 
asked, What have you created, in terms of this new country? And 
he said, ``A republic, if we could keep it,'' but he never 
said, ``In adversity, lies opportunity.'' He said, ``Einstein 
said that,'' and he is right.
    [Laughter.]
    Senator Barrasso. We will give you a chance to rebut after 
the other testimony.
    But we would like to turn, Ms. Lister, to Michael Benjamin, 
who is the Chief, Air Quality Planning Division of the 
California Air Resources Board, joining us from Sacramento, 
California.
    Thanks so much for being with us today, Mr. Benjamin.

 STATEMENT OF MICHAEL T. BENJAMIN, CHIEF, AIR QUALITY PLANNING 
      AND SCIENCE DIVISION, CALIFORNIA AIR RESOURCES BOARD

    Mr. Benjamin. Thank you.
    I am Michael Thomas Benjamin, Chief of the Air Quality 
Planning and Science Division at the California Air Resources 
Board.
    Chairman Barrasso, Ranking Member Carper, members of the 
Committee, thank you for inviting me to testify today on 
lessons learned from COVID-19 regarding the potential for 
remote working to improve air quality and climate change.
    The COVID-19 pandemic has had a devastating effect on 
California's people and economy. To date, more than 450,000 
Californians have contracted the virus, and 8,500 people have 
died.
    At the same time, the State is confronting a $54 billion 
budget deficit and has seen more than 6.5 million unemployment 
claims since mid-March.
    To address the public health emergency, on March 19th, 
Governor Newsom issued an executive order directing all 
Californians to stay at home except under limited 
circumstances.
    Recognizing the potential long term benefits of telework, 
Governor Newsom has launched an economic recovery task force 
that has prioritized, alongside addressing climate, air 
quality, and equity, exploring a statewide telework strategy. 
He has directed 75 percent of the 235,000 State employees work 
from home at least part time for the foreseeable future.
    The demand for travel has significantly changed in response 
to the Governor's executive order, as well as other factors. 
Between mid-March and late April 2020, statewide vehicle miles 
traveled dropped by approximately 75 percent relative to 
January. This reduced travel has had observable impacts on 
overall emissions from vehicles as well as air quality.
    In the first 6 weeks of the stay at home order, reductions 
in passenger vehicle usage resulted in a 15 to 30 percent 
reduction in smog forming pollutants and a 50 percent reduction 
in fine particulate and greenhouse gas emissions statewide. 
California's network of more than 250 air quality monitors 
detected a reduction in statewide ambient concentrations of 
nitrogen dioxide, carbon monoxide, and fine particulate of 
approximately 35 percent.
    At the same time, average concentrations of ground level 
ozone decreased by a statewide average of about 12 percent 
compared to the same time period in 2015 to 2019.
    This is good news for air quality and public health, 
especially given recent research from Harvard demonstrating a 
link between fine particulate exposure, which 
disproportionately impacts communities of color, and increased 
COVID-19 deaths.
    More recently, as stay at home orders have been relaxed in 
California, vehicle miles traveled have begun to rebound. As of 
late June, Californians were driving about 35 percent fewer 
miles than in January.
    With this continued reduction in travel, emissions of smog 
forming pollutants from passenger vehicles are still down 5 to 
15 percent relative to January, while emissions of fine 
particulate and greenhouse gases are 25 percent lower. These 
ongoing reductions in tailpipe emissions are reflected in lower 
measured concentrations of air pollutants across much of 
California.
    While reduced travel and increased teleworking have had 
some benefits for air quality and climate, they have also 
resulted in negative impacts on transit and shared modes of 
transportation that will likely make it difficult to maintain 
emission reductions as the country recovers from the pandemic 
and more people return to work. Local transit agencies reported 
that ridership dropped as low as 10 percent of normal after 
stay at home orders, and is slow to recover as travel 
increases.
    Other shared mobility services, such as pooled rides and 
car sharing, have been reduced or discontinued, further 
limiting affordable options for essential trips. The immediate 
observed decreases in public transit use and shared or pooled 
services have led to an increase in personal vehicle use, when 
travel does occur, and could lead to a preference for personal 
vehicle use longer term, reversing observed gains in air 
quality and congestion.
    This is of particular concern because according to a recent 
University of Chicago study, only about 37 percent of U.S. jobs 
can be performed at home. Furthermore, for many essential 
workers, public transit is often the only transportation 
option.
    Surveys have shown that currently, more that 90 percent of 
riders are using transit to commute to work, with more than 20 
percent employed in health care services and almost 20 percent 
in food preparation.
    Looking beyond COVID-19, it is hard to predict what travel 
will look like or how many employees will continue to telework.
    Although California's experience with COVID-19 highlights 
the potential environmental benefits of expanded teleworking, I 
would note that many jobs, particularly low wage jobs, are not 
conducive to telework, and many of those workers do not have 
access to a car. Our economy depends on these people getting to 
work.
    In order to take advantage of the air quality and economic 
benefits of telework, we need to continue investing in a range 
of affordable and clean transportation options, including 
walking, biking, and transit, that will enable all workers to 
get where they need to go while continuing to decrease air 
pollution and greenhouse gas emissions.
    As we recover from COVID-19, we also know that people will 
begin to drive more. When they do, let's ensure those vehicles 
are zero emissions so that we can continue to enjoy the 
benefits of cleaner air.
    That concludes my testimony. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Benjamin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Well, thank you very much to the three of 
you for your thoughtful testimony. We are going to start with a 
series of questions.
    We are going to have rounds of 5 minutes each, and I will 
start.
    To Ms. Lister and Mr. Pringle, I will go to Ms. Lister 
first, the question is for both of you. I will ask Ms. Lister 
to answer first.
    If the Federal Government more aggressively adopted 
telework, could we significantly reduce the office space 
requirements for the Federal Government without harming 
productivity? Over a decade, how much money do you think 
taxpayers could save?
    Ms. Lister. Absolutely, you can reduce the footprint. Your 
footprint is already bigger than in the private sector with 
average office space. Many of your buildings are older, so 
there is a great opportunity to reduce that real estate.
    The numbers that we came up with of that $1.7 billion a 
year are based on just a 25 percent reduction in real estate 
for people working remotely half of the time. That is only your 
eligible population. I would question whether or not there are 
many more that are eligible, even based on how many are working 
at home right now.
    So, I think the potential is there, at $11 billion a year, 
times 10 years, $110 billion over the decade.
    Senator Barrasso. That is a lot of money.
    Ms. Lister. It is substantial. Lots of zeroes.
    Senator Barrasso. Thank you.
    Mr. Pringle.
    Mr. Pringle. Thank you, Mr. Chairman. From our experience 
at Dell Technologies, I think the first part, in regard to 
without impacting productivity, we have seen higher employee 
satisfaction with workplace flexibility without harming the 
productivity.
    And to align with Ms. Lister, yes, we do absolutely think 
that as you have more Federal employees telework or work from 
home, you ultimately could have--what you are going to see is 
lower utilization rates on the buildings. You will be able to 
assess the buildings; do you need them, do you not need them. 
And you will have less office requirements in regards to that.
    Also, one of our April employee surveys also had 96 percent 
of our team [indiscernible] flexible [indiscernible] Dell 
Technologies contributed positively to our performance 
[indiscernible] don't think that is going to impact your 
workforce productivity.
    Your question in regard to over a decade, how much money 
could the taxpayer save, I think there are two parts. Based 
upon my experience, the Government obviously needs to assess 
the job function, utilization rates of each site.
    To what Ms. Lister talked about, some people are going to 
want to work in the office a couple days; other people are 
going to want to work from home full time.
    You have to look at those utilization rates, how the people 
are going to utilize it. And then as we look at this based upon 
my testimony,
    [Indiscernible] we look forward over the next 5 years, I do 
think, without all the details of the data behind the GSA use 
of buildings, I think ultimately you could save 30 percent or 
20 percent [indiscernible].
    Senator Barrasso. If I could just dig down a little bit 
deeper into this, because in terms of Dell and the overhead 
costs that you saved since you integrated remote work and 
innovative workplace planning, obviously some of that has been 
real estate and real estate related costs, but there is also 
just a general overhead savings as well.
    Can you talk a little bit about how much of that, how much 
you have saved, how much of that has been just real estate and 
real estate related costs, and then the other part of it as 
well?
    Mr. Pringle. As we dig into this, I think there is a couple 
different parts. Ultimately, you know, you saw in our testimony 
that from 2013 to 2016, we attributed to our Connected 
Workplace telework program, approximately $12 million a year in 
real estate savings, which is up to $48 million.
    It was a little bit more challenging to track and manage 
that 2017 to 2020, just because of our acquisitions and 
divestitures. Obviously we have had, as we consolidated 
buildings and things for different savings, I think the biggest 
part is we looked forward into 2020 and into the next 5 years. 
That says we have looked at it based upon teleworking for our 
Connected Workplace savings. We think we can get close to 
[indiscernible] percent [indiscernible] savings.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Let me just ask a question, and just a short answer from 
each of you. Why do you think it took so long for us as a 
Nation to move in this direction for telework? Why did it take 
so long? Why only now?
    Ms. Lister. I will jump in there. The biggest holdback 
since the 1970s when Jack Nilles invented the term ``telework'' 
has been that managers simply don't trust their employees to 
work untethered.
    I think the biggest thing that we are going to learn coming 
out of this, we already have learned, is that now they realize 
that their people are productive, and they can tell that they 
are productive. But we still need a lot of training on managing 
by results, rather than butts in seats. I think that will make 
the biggest difference.
    [Indiscernible] that have experienced it.
    Senator Carper. Good; thank you.
    Others.
    Mr. Pringle. Ranking Member Carper, what I would say 
probably the biggest challenge we have seen is, I think it is a 
dated mindset. I think it is the managers' perception.
    That is why we launched this about 10 years ago. We thought 
by driving a teleworker connected workplace program that 
ultimately, we enabled the employees to have workplace 
flexibility and choice.
    I think the biggest challenge has just been more 
[indiscernible]. What has been interesting with COVID-19 as it 
has driven everybody to--Dell Technologies, who had over 90 
percent of our workforce working from home, it has basically 
dispelled that notion that we can't have individuals work from 
home and be productive.
    Mr. Benjamin. In California, at the Air Resources Board, 
back in March, we actually conducted an employee survey of our 
staff. We have 1,700 staff. Our survey results yielded results 
very similar to what Ms. Lister and Mr. Pringle mentioned in 
their surveys.
    Really, one of the things that we have learned is, I think 
very much echoing what Ms. Lister just said, which is that I 
think some of the inertia previously about teleworking related 
in large part to trust. I think that the current experience 
that we are having is indicating that it actually is very 
feasible for an institution or an agency to work effectively 
and to manage people remotely.
    So I think this has been a big learning experience for us 
as an agency, as well.
    Senator Carper. All right, thank you. A couple of you, 
several of you have mentioned people still needing to have 
access to transit in order to get to work. We have seen 
significant drop offs in Amtrak in ridership, and we have seen 
significant drop offs in people traveling by air.
    Talk to us, each of you, if you would, about why it is 
important that we continue to provide support for transit for 
people to get to work.
    Mr. Benjamin, do you want to go first?
    Mr. Benjamin. Yes. So, when we look at the data for public 
transit usage, it is very similar to what you just said, 
Senator Carper, which is that relative to personal vehicle 
usage, it is down about 15 percent more.
    Our concern is that, as I mentioned in my testimony, that 
many lower income workers rely on public transit to get to 
their jobs. They are essential workers, and there will always 
be a large segment of the economy that requires hands on work 
that is not amenable to telework.
    We are going to need to figure out collectively how best to 
enable those individuals to get to the workplace in ways that 
are both affordable and accessible, but also have the lowest 
environmental impact.
    Senator Carper. All right.
    Others, please. Anything that either of you would like to 
add to this, Ms. Lister, Mr. Pringle, on this subject?
    Ms. Lister. Yes. I think it is important to continue all of 
the modes of transportation that reduce our greenhouse gases 
and energy usage. But I think for a very long time, more than a 
decade, telework has been ignored in the transportation demand 
management community.
    So I think some of the moneys that have gone to the public 
transit issues, we need to think about what is getting people 
off the road altogether. We absolutely have to support it.
    But I think that there has to be a blend, and I think that 
this crisis has proven we need to be able to work remotely for 
continuity of operations, and it is absolutely critical.
    This is not the last time this is going to happen, so I am 
not saying, I am not dissing public transportation, we need to 
do that, but we also need to recognize that telework is not 
just something that happens. It is something that has to be 
made to happen, and it is going to take some effort and some 
money to make that happen.
    Senator Carper. OK.
    Mr. Pringle. Anything you want to mention on this?
    Mr. Pringle. Yes, Ranking Member Carper. I think in regard 
to that, it is important to what Ms. Lister was talking about. 
As you do telework, either individuals are going to be, one of 
the key challenges will be how do you collaborate. So a lot of 
people working from home, some people 5 days a week, some 
people will be 2 or 3 days a week.
    As you see that, I do think it is important that we 
continue to support the public transportation and such. To help 
enable that, obviously, as we go [indiscernible].
    I think, as you look at this, there are opportunities as 
people to work through this, the telework, especially around 
technology and innovation, especially around 5G broadband that 
will help enable the [indiscernible].
    Senator Carper. All right, thanks to all of you, especially 
our friends out in California. I am surprised that some of you 
are not in your pajamas from California. That would have been 
acceptable.
    Thank you very much.
    Senator Barrasso. Well, thank you, Senator Carper.
    We have a number of members who are participating remotely 
as well, and Senator Capito is next up with the questions.
    Senator Capito. Thank you, Senator Barrasso, and I want to 
thank the panelists.
    Give me the thumbs up if everybody can hear me here.
    OK, good.
    I am glad to see Senator Cardin on, as well. We share a 
border, in that West Virginia and Maryland border one another.
    Back when we were in the House together, he and I worked on 
an issue, because of the DC area and the availability of 
Federal telework, we worked on that with our friend Tom Davis 
from Virginia.
    We tried to expand those opportunities, and just as the 
panelists said, it never really took off. There were suspicions 
around it, and I am glad to know that we are having this 
healthy discussion again, because I think it is absolutely what 
we know.
    In West Virginia, we have the IRS, we have NOAA, we have 
FBI, NASA, Coast Guard, all kinds, that encompasses telework at 
the same time as relocating Federal employees out into more of 
the more rural parts of what would be the greater DC area.
    One of the issues that I have talked about a lot, and that 
is an issue that, before we can get to this for everybody and 
have equal access, we have this connectivity problem.
    Mr. Pringle, certainly during this pandemic, it is been 
very obvious not just to the telework space, but telehealth, 
and also the educational space.
    I have worked to introduce some legislation like the E-
Bridge Act under this Committee to help get us some flexibility 
for some of the Federal agencies to work with private entities 
to expand our capabilities.
    So, where do you see this in terms of, is this going to 
enhance our digital divide if we go to more telework, and yet 
our rural communities are still not connected?
    How critical is this, and what can we do to jumpstart this 
in conjunction with the private sector?
    Mr. Pringle. Thank you, Senator. I think to your point, the 
home is traditionally been used for like, TV media content, and 
then especially with COVID-19, basically, each home has become 
an enterprise.
    So I think there are two parts. First of all, how do we 
bridge that digital divide, as you talked about it. Then I 
think as you look forward, it is really going to be, how do you 
ensure bandwidth capacity in a secure way that enables the home 
or the router to kind of manage and prioritize the workloads 
via tunneling, which is how do you prioritize work versus 
school versus media or gaming, along with application of AI to 
drive more intelligent device features from always connected, 
[indiscernible] devices.
    Most importantly, I think it is really the adoption of 5G, 
Wi-Fi, 6E, you know. As you look at 5G, they have fixed 
wireless access points that are coming that will allow people 
to bridge that digital divide. You put out a fixed wireless 
access that can help enable that.
    I think it is really investing, supporting the 5G, the Wi-
Fi, 6E, along with ensuring as we manage this from the home 
router, the security, the managing, and the prioritization of 
the workload to help enable that.
    Senator Capito. Well, I look forward to working with all of 
you on that as we have continued to do, obviously, with Federal 
resources, in combination with private entities.
    One of the benefits I see, at least having my State be part 
of the larger DC metropolitan area, it is the savings for a 
Federal employee. Say, for instance, the average cost of a home 
in my State would be $110,000 where in DC, it is $600,000.
    I think from your experience, are employees able to enjoy 
significant cost savings when it comes to housing as a result 
of an increased emphasis on telework, because they can really 
locate to more low cost areas, maybe more rural areas.
    Then as you look at what we see with the disease spread and 
pandemic, these areas are going to become much more desirable. 
They are always desirable to me, but even more desirable, 
because you can work there, and you can also avoid the 
congestion that we see has been contributing to a lot of the 
spread.
    I don't know if you have, if you or Ms. Lister have an 
opinion on that.
    Ms. Lister. Yes, Senator.
    Mr. Pringle. Go ahead, Ms. Lister.
    Ms. Lister. I think it is a very good question. We need to 
not create a nation of haves and have nots, to your first 
question. This is a real opportunity for rural communities to 
upgrade their employment opportunities, if we make the 
investment in the information highway, as we did the 
superhighways. That is our means of transportation to work now.
    To your question about saving money, a typical employee 
saves between $2,500 and $4,000 a year, just in sort of the 
surface stuff, the getting to work, the dry cleaning, the $3, 
$4, $5 coffee, depending on where you are.
    And then, as you say, if they have the opportunity to move 
outside the area, there is even more savings.
    About 16 percent of the population that we surveyed said 
they would like to work remotely full time. You kind of have to 
get to that, if you are going to make a dramatic move out of 
the city.
    We are also hearing in the private sector, OK, so does that 
mean I am going to take a pay cut? If I am making San Francisco 
wages, and I move to Alabama, do I make the same amount?
    I think there are a lot of these questions that we don't 
have answers to that I think Government can help start to set 
the example.
    Senator Capito. I think that is a significant point. I had 
not quite processed it in that way. So I think that that will 
be a good part of the conversation.
    The other issue I will say, just in closing, having been 
the appropriator for GSA, looking at just incredible, billions 
of dollars we spend every year for buildings that are not fully 
occupied. As you said, space, the way that it is spaced out, 
very inefficiently.
    For instance, the IRS building out in Martinsburg, which I 
believe has several hundred people there, they have been 
teleworking for years. Any one day, only between 7 percent to 
10 percent of the workforce is actually in a building that was 
built for 10 times that amount of people.
    So it is something that we really need to look at, and I 
look forward to working with all of you on the Committee.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Cardin.
    Senator Cardin. Well, Mr. Chairman, thank you very much, 
and Ranking Member, I appreciate very much this hearing.
    I am going to first underscore the point that Mr. Benjamin 
made and Senator Carper. We have all noticed during COVID-19, 
the environment has been a lot more friendly. I take morning 
walks, and the amount of wildlife we see, we have certainly 
seen a major improvement in our environment.
    But I am also one of those Senators who commutes to work 
here in Washington. I live in Baltimore, and I am on the route 
between Baltimore and Washington daily. The commute time has 
been cut in half as a result of less traffic on the roads, as 
it should.
    My point is this, and Mr. Benjamin, I totally agree with 
your point, if we set up the ideal way of telework, and I hope 
we do, I hope we learned the lesson that many workers can be 
much more efficient working from home and save a lot of time 
and help our environment, there will be still those who need to 
get to work physically. Therefore, our commitment to transit 
must continue. Our commitment to the transportation alternative 
programs that allow us to have the bike paths must continue.
    So I appreciate that point. I just wanted to underscore 
that from one of the lessons learned from COVID-19.
    I am going to ask a question related to Senator Capito, I 
couldn't agree more with her point on connectivity. 
Connectivity is going to be critically important if workers are 
going to be able to telework. If you don't have connectivity, 
you really are not able to compete in our current economy.
    Yes, we have specific programs that deal with connectivity. 
The Department of Agriculture has a program that deals with 
rural America. The Federal Communications Commission has set up 
funds to deal with connectivity. Then under our Committee 
jurisdiction, the EDA Program could be more targeted and more 
flexible to allow communities to get that last mile connection.
    And I want to thank Senator Capito. The two of us have 
worked together in the EDA to try to modernize that program to 
make it more accessible to local governments to do what they 
need for their economies, which include connectivity. But we 
want to make it easier for them to be able to use those funds 
for connectivity.
    But we have, I think, an incredible opportunity right now. 
There has been an underscore of the inequities where you do not 
have connectivity for students, who have had to do distant 
learning as a result of COVID-19.
    Senator Capito is absolutely correct. That is very 
prevalent in rural America, where connectivity is much more 
challenging.
    But it is also true in our urban centers, where, for 
economic reasons, homes do not have connectivity. Private 
providers aren't even providing the service, because they are 
in business, and they don't have enough customers. Therefore, 
they are not providing the infrastructure necessary for 
broadband Internet service.
    So, it is true, Senator Van Hollen and I did a survey of 
our Boards of Education and our superintendents of schools. We 
have 24 subdivisions, school districts. Every one of those 
school districts have challenges on connectivity.
    I mention that, because as we are talking about having a 
sensible telework policy, we need to use every avenue available 
to advance connectivity, and today, we are talking about the 
next round of COVID stimulus.
    I do hope, like the House bill, we include significant 
resources for connectivity for our students. If we do that, it 
will help their parents, who will have the opportunity to 
telework in the future, they will have the connectivity that we 
need in our community.
    I think I will start off with Ms. Lister, as to the need to 
deal with connectivity as it relates to having the right 
balance on those who can telework moving forward, those who 
have to go in person, or the hybrid system, where you work some 
days at home, some days from work. How do you do that if you 
don't have connectivity?
    Ms. Lister. You are absolutely right, Senator. You can't. 
It has to be a priority to make connectivity available to 
everybody.
    I think there have been some examples during this of 
companies that take buses, I don't know what it is, a repeater, 
or some Internet availability and park them in places where 
there is not connectivity, so that children can continue to do 
homeschooling.
    I think we have to, I hope we will get past this, and we 
won't have this huge load on the home. Some of it will go back 
to the schools, we won't all be sharing in one small place. So 
some of that may sort itself out, but one has to go with the 
other, you are absolutely right.
    Senator Cardin. It is not just having connectivity; it is 
also the affordability of connectivity. As we have seen, as you 
said, where you have everyone home at the same time, you have 
to upgrade your connectivity so that everybody can get the 
service that they need. For many families, they don't have the 
economic ability to do that.
    So it really is necessary for us to figure out how we can 
have an equitable availability of Internet service in this 
country. Part of it is rural problems, part of it is economic 
problems, part of it is just outreach and education, and part 
of it is the economics that we have to deal with in regulating 
the industry.
    But to me, this needs to be a high priority so we can get 
the right balance for education, schools, and commerce for 
families, but the right balance from telework and having to go 
into work. You can't do that unless you have connectivity.
    That saves us money on wasted time on transit, also saves 
us, as Senator Capito said, we don't need as much rental space; 
we can save money for the taxpayers in the country.
    Thank you, Mr. Chairman. I appreciate it.
    Senator Barrasso. Thank you very much, Senator Cardin.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman, and thank you for 
bringing up the topic.
    In the year and a half I have been here, when we are 
talking about cost savings and doing things that are going to 
save the Government money, it is refreshing to hear and see 
that, maybe one of the silver linings of this crisis we are 
going through is not only telecommuting, but telehealth as 
well.
    I want to put into perspective, I am on the Budget 
Committee. I would be remiss not to bring it up, that we run 
trillion dollar deficits, structurally, here in this Federal 
Government.
    Also, to put it into perspective, Walmart is the largest 
company in the world in terms of sales volume, at about $524 
billion. So the Federal Government is roughly nine times that 
size. Each year, in just our operating needs, we borrow 23 
percent of our budget.
    According to Global Analytics, when the workplace analytics 
did the amount of savings by telecommuting, half of the Federal 
employees, which are just under a million, did do that half of 
a year, it would save maybe $11 billion to $12 billion. Of 
course, if you did it all the time, you could double that.
    It puts into perspective how big the problem is that we try 
to address piecemeal. The other thing the public needs to know 
is that the driver of these deficits would be basically Social 
Security and Medicare, other mandatory spending, interest on 
our debt, that comprises between 65 percent and 70 percent of 
what we spend.
    So I am glad to see we are taking some effort here to find 
savings. We need to do it, but we need to have the political 
will to look more deeply into what drives this Government each 
year into really a irresponsible place of running trillion 
dollar deficits.
    We have heard a little bit today about the benefits of 
telecommuting; I would like to hear from the three panelists. 
We have done this in our own business to some extent. I am not 
involved with it anymore, but I know that it works. We have 
used telehealth for a long time before it became in vogue just 
due to crisis again.
    But I would like to hear from the three panelists what 
might be some negatives or drawbacks, if any, if we are working 
from home more and more. Anyone can jump in and start.
    Ms. Lister. I will start out with that, Senator. What we 
have seen from companies that have been doing this the longest 
is that they struggle with the sense of esprit de corps, of 
maintaining the company culture, of having people feel 
connected to the purpose.
    I think some solutions to that will come out of Silicon 
Valley. I think about the day of holograms making it more rich. 
But having that hybrid, having that part time working in the 
office and part time at home, helps to solve some of those 
problems.
    We also have examples in the private sector of companies 
that are 100 percent remote, companies with 1,500 employees. So 
they have overcome some of these problems. I think that we 
really have to dig deep and start thinking about, how do we not 
just replicate the way we did things in the office? How do we 
make it better?
    Senator Braun. Anyone else?
    Mr. Pringle. Yes, Senator. This is Mark Pringle.
    I would concur with Ms. Lister. I think it is a couple 
different things. I think it is ultimately, as people telework, 
they continue to work from home, I think there could be a 
combination, a hybrid model.
    Collaboration, I think, is a critical aspect to innovation. 
I think there are tools and such that are continuing to evolve 
and innovate to help facilitate that. But ultimately, you will 
need some type of collaboration and engagement.
    I think the other part is the culture. You need to ensure a 
culture of inclusivity. Typically, people, as they worked in 
the buildings, it was easy to drive inclusivity through that. 
But I think as people telework, as people continue to stay home 
from the office, it is, how does the leadership and the 
different managers and the individuals share the drive to 
inclusivity. and I think ultimately, as we get to this model, 
you will start to see more and more of that evolve. I think 
those are some of the challenges we have got to go manage.
    Senator Braun. Thank you.
    Dr. Benjamin.
    Mr. Benjamin. I would agree with Ms. Lister and Mr. 
Pringle. As an agency, we are right now, going through exactly 
the type of transformation that Ms. Lister described, which is 
from an organization that has worked primarily in the workplace 
to one that is now migrating toward, very rapidly, toward 
primarily telework.
    So for us, a key priority is how do we maintain that 
organizational culture, how do we onboard people, and how do we 
maintain high morale, given that we are now working in really a 
very different way that we have in the past.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Please, Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, very much, and thanks 
to our panelists for joining us through Webex today, as well.
    During my time in the Senate, I have made it a priority to 
find ways to save taxpayer dollars and make the Federal 
Government work more efficiently. I am glad that we are taking 
this opportunity to examine the topic here today.
    I have long been a proponent of moving more Federal jobs 
outside of Washington, DC. In the past two Congresses, I have 
introduced the Strategic Withdrawal of Agencies for Meaningful 
Placement Act, the SWAMP Act.
    Currently, we see that the headquarters of nearly all of 
our executive branch agencies are clustered in and around 
Washington, DC. That concentrates hundreds of thousands of jobs 
in the region.
    The SWAMP Act creates a competitive bidding process that 
allows States, cities, and towns across the country to compete 
to be a Federal agency's new home. During the COVID-19 
pandemic, many of our Federal workers have successfully done 
their jobs from outside of DC, showing us that they don't 
necessarily need to be in Washington to do their jobs.
    I think this bolsters my argument that we can and should 
move more jobs out of Washington and closer to the folks who 
know the needs of their States, their farms, and their 
businesses best. In the process, we will see more job creation 
and greater opportunities for communities across the country, 
and not just in DC.
    I would echo the sentiments of my colleague, Senator 
Capito, in that there are a number of us that choose the rural 
areas. We agree that there is great opportunity in those rural 
communities.
    Mr. Pringle, if we could start with you, please. Clearly, 
Dell's connected workforce has been successful and had your 
company well prepared to adapt to the remote work environment 
that has been brought on by COVID-19. What challenges has Dell 
encountered in its implementation of the Connected Workplace 
Program, and then how have you been able to overcome those?
    Mr. Pringle. Sure. We implemented the Connected Workplace 
Program, as you work through it. Obviously, the benefits, one 
of the biggest unforeseen benefits we saw was how quickly it 
grew over the years. Obviously, we are at 65 percent, 
obviously, today we are working at 90 percent.
    I think in terms of challenges, really, I think the biggest 
challenge will be as you look at it and make a [inaudible], how 
do you manage the real estate, how do you manage the 
collaboration.
    I think one of the other benefits we are really starting to 
pursue, which is what you mentioned, is we have an opportunity 
to go out and drive talent acquisition, which allows us to 
access diverse talent, drive more inclusivity across the U.S. 
that we probably would not have been able to access if we were 
locked to a specific location.
    Senator Ernst. Yes. To that end, saving the dollars as well 
has been really important.
    As you mentioned, the talent, and finding talent for Dell, 
if we look at the talent that would be available if the SWAMP 
Act were to be fully implemented, moving Federal agencies like 
USDA outside of Washington, DC, and actually out into the areas 
that they represent, like a place like Iowa, where you have 
innumerable men and women that have worked with agriculture 
their entire lives, studied at many of our fine universities, 
agricultural programs.
    So the talent is in those areas. We could see the usage of 
remote work and relocation, we think it would be very, very 
beneficial.
    With your program, Mr. Pringle, do you think that could be 
duplicated for Federal agencies, and perhaps be as successful 
as what you have seen at Dell?
    Mr. Pringle. Based on Dell's experiences, yes, we have used 
the Connected Workplace and Telework Program to help support 
the Federal Government, to support the State governments.
    Ultimately, you can leverage different ways to support 
different organizations in different States with teleworking. 
It allows you to access more diverse talent in rural localities 
to support it.
    Senator Ernst. Well, thank you very much. I look forward to 
learning more about teleworking as we move into the future. I 
think this is a way that we can save some of our taxpayers some 
dollars and allow them to keep more of their hard earned cash.
    So I look forward to exploring it further, Mr. Chair. Thank 
you for the opportunity.
    Senator Barrasso. Thank you very much, Senator Ernst.
    Ms. Lister, we are kind of winding down to see if other 
Senators have any other additional questions.
    I have a question for you about advancement in the 
workplace. I have working with me now this summer, four 
wonderful interns. Paige is here, and Brooke, and Malachi, and 
Vinny. We are getting a chance to take a look at them, they 
look at us, is this something that they have the will and the 
skill to work, is it a good fit, and they can prove their 
value.
    The question is, are there advantages across the board? You 
have written a lot about this, I have read some of your work 
for advancement in the workplace in terms of proving value, in 
terms of being able to promote oneself, standing out.
    Are there advantages that you have seen basically to be 
physically present to make the best case for you? What have you 
seen along these lines, as we are moving to more and more 
people working remotely?
    Ms. Lister. That is a very good question. It is one of 
those areas that companies are struggling with. Anecdotally, I 
have heard onboarding is not working as well, that converting 
interns to employees is not working as well. So that subtle 
grooming that takes place at the office is important, too.
    I talked to a New York Times reporter who said, I learned 
how to interview sitting in the bullpen, listening to other 
people interview. I think that we need to somehow replicate 
that, or improve on it through in virtual world.
    But I think, there again, it is not all or nothing, and I 
think there are ways to do mentoring and matching people to 
help solve some of these problems.
    There are also, as I said, companies that do this all 
virtually. GET Lab hires everybody via chat. They become an 
employee, never having talked to a person live, or seen them, 
so there are solutions out there.
    But again, I am a big fan of a hybrid mode, and I think we 
just need to feel our way through this.
    In terms of the data, we show that the media, perhaps, 
overemphasizes the problem of career advancement. We find only 
about 25 percent of people say that they feel that they will 
not advance as quickly, or that they will be penalized in terms 
of salary.
    Senator Barrasso. Well, I want to thank all of you for your 
time and your efforts today to join us from around the country. 
We have had good participation by Senators.
    There may be more members asking questions, so they are 
going to be able to submit written questions for the record, so 
we will keep the record open today, the written record, for 2 
weeks, so please try to respond back to them.
    I want to just thank all of you for your time and your 
testimony, and at this point, the hearing is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                 <all>
</pre></body></html>
